      Department of Homeland Security





           Federal Protective Service's Exercise of a
         Contract Option for the Risk Assessment and
                     Management Program




OIG-12-67 (Revised)                              August 2012

                                     August 31 , 2012

MEMORANDUM FOR:               L. Eric Patterson
                              Director
                              Federal Protective Service

FROM:                         Deborah  O~~~I~~'~ ~
                              Acting Assistant Inspector General for Inspections

SUBJECT:                      Re-issuance of Inspection Report OIG-12-67, FPS'
                              h.'xercise of a Contract Option for the Risk Assessment and
                              Management Program

I am wTiting to infonn you that the Department of Homc1and Security Office of Inspector
General (OIG) has recalled the subject report and is now fe-issuing it to modify the
statement of comp liance with Quality Stafldardsjor Inspections (QSI) . We took these
actions because it recently came to our attention that a fmnily member of a senior OIG
official was employed by an entity associated with this inspection.

To ensure that this impairment to our independence in appearance did not afleet our
findings and conclusions, we thoroughl y fe-reviewed our work on this inspection, as well
as the results. Through this re-review, we verified that the impairment did not affect our
results; our evidence is sound and fully supports our findings and conclusions.
Therefore, we are fe-issui ng this report and fe-posting it on our website. The report is
unchanged excepl for the statement of compliance with QSI found on page 6 of Appendix
A - Purpose, Scope, and Methodology.

We remain committed to assisting the Department in improving its effectiveness and
etliciency to better carry out its mission, and we appreciate your support of our work.
Please do not hesitate to call me at (202) 254-4015 if you have ally questIOns or concerns,
or your staff may contact William McCarron , ChiefInspector, at (202) 254- 4206.

Altachment
Background
The mission of the Federal Protection Service (FPS) is to render more than 9,000 federal
facilities owned or leased by the General Services Administration (GSA) safe and secure
for federal employees, officials, and visitors. FPS employs 1,225 federal staff, including
various law enforcement and support personnel, and utilizes 15,000 contract security
guards. The Homeland Security Act of 2002 transferred FPS from GSA to the Department
of Homeland Security (DHS). In October 2009, DHS moved FPS from U.S. Immigration
and Customs Enforcement (ICE) to its National Protection and Programs Directorate
(NPPD).

In August 2008, ICE competitively awarded and FPS funded a $21 million, 7-year
contract (1 base year and 6 option years) to a company to develop and maintain the Risk
Assessment and Management Program (RAMP). RAMP was intended to be a next
generation risk assessment tool to enable FPS to:

    •	 Assess and analyze risk posed to federal facilities and mitigate those risks by
       recommending and tracking countermeasures; and
    •	 Manage post inspections, guard contracts, and individual guard certification
       compliance.

In July 2011, the Government Accountability Office (GAO) reported that RAMP was
over budget, behind schedule, and could not be used as intended. According to the GAO
report, several factors contributed to RAMP deficiencies. Specifically, FPS changed the
original requirements, which caused the contractor to add additional resources; FPS did
not conduct user testing as part of development; and ICE did not complete contractor
performance evaluations.

In an attempt to meet deployment milestones, FPS expended all $21 million of obligated
funds by 2010, 5 years sooner than expected. In May 2010, ICE awarded the original
developer a second contract, called a logical follow-on, to continue RAMP development
and prepare for the transition to NPPD.1 According to ICE, this contract was awarded
without full and open competition because it was logistically impossible to compete and
award a contract and allow time for a new contractor to create and train a team capable of
continuing the development schedule while performing operations and maintenance prior
to the expiration date of the original RAMP contract. The follow-on contract included a
base year and 1 option year with a total projected cost of $25 million.

Results of Review
Notwithstanding the previous overspending that GAO identified, FPS minimized some
costs of RAMP by stopping development and paying the contractor only to operate and
maintain the program. As a result, FPS will save the government at least $13.2 million

1
  A logical follow-on is an exemption to the fair opportunity process described at 48 CFR 16.505(b)(2)(iii),
recodified at 48 CFR 16.505(b)(2)(i)(C).


                                                     1
(see table 1). However, FPS has not determined how it will maintain data in RAMP or
transfer critical data out of RAMP after June 2012. FPS risks incurring additional
expenditures, including paying for the transfer of useless data, as well as losing critical
data, if it does not act soon.

        Table 1: Obligated, Revised, and Unspent Funding for the RAMP Follow-on Contract

                                   Base Year          Option Year              Total
       Obligated Funding           $12,499,832         $12,498,779            $24,998,611
       Revised Funding              $9,154,961          $2,619,836            $11,774,796
       Unspent Funding              $3,344,871          $9,878,943            $13,223,815

FPS Ceased RAMP Development Because It Was Not Cost Effective and Did Not
Fulfill Its Original Goals

FPS ceased development of RAMP in May 2011 because RAMP was not cost effective
and did not fulfill its original goals. GAO reported that RAMP’s actual costs were almost
three times more than the $21 million original development contract amount. GAO also
determined that FPS could not use RAMP to complete facility security assessments or
reliable guard inspections. The FPS decision resulted in unspent funds of $3.3 million for
the base year of the follow-on contract (see table 1).

FPS officials told us that the FPS Director reached this decision after he, senior FPS
officials, program managers, and end users held a series of meetings at headquarters and
regional offices to discuss problems with RAMP. These meetings occurred from October
to December 2010. In late March 2011, FPS began exploring options for developing a
new version of RAMP with NPPD’s Office of Infrastructure Protection and Argonne
National Laboratory. In late April 2011, FPS evaluated options for limiting RAMP-
associated costs and ultimately decided in May 2011 to cease development of RAMP.
FPS also did not exercise an option for a separate contract that provided project
management for RAMP.

FPS Minimized RAMP Costs by Exercising a Descoped Contract Option

Although FPS is no longer developing RAMP, it is still using the system to manage its
guard force through post inspections. RAMP also contains historical data from legacy
systems that FPS wants to retain and maintain, such as countermeasures in place at
facilities.2 If RAMP is not maintained, then FPS will not be able to access historical post
inspections or facilities security assessments. These records are important when
determining what security countermeasures are and have been in place at a given facility.

In June 2011, NPPD’s Acquisition Division, the office that administers the contract,
exercised its 1-year option for the follow-on contract, extending it to June 2012. The
contracting officer modified the scope of work for the option year by removing
2
 RAMP replaced three FPS systems: Federal Security Risk Manager, Security Tracking System, and
Contract Employment Requirements Tracking System.


                                                 2
development but keeping operations and maintenance. FPS was able to deobligate
$9.9 million for the option year since it required only $2.6 million to fund operations and
maintenance.3 The contracting officer determined that exercising the option was the most
advantageous and cost-efficient method of fulfilling the government’s needs in
accordance with federal acquisition regulations.4

It would not have been feasible to create, solicit, and award a new contract for operations
and maintenance before the base year of the follow-on contract expired. Transitioning
RAMP to a new contractor would have caused an interruption or degradation in service
until the contractor could reach full performance. According to the contracting officer,
the original developer was already performing operations and maintenance at an
acceptable level, so he saw no reason not to exercise the option. Additionally, the
developer estimated operations and maintenance costs separately from development.
This allowed the contracting officer to modify the contract by mutual agreement instead
of partially terminating it for convenience.

By exercising the option year, FPS is paying the original developer to manage and
maintain RAMP in order to identify and correct software failures, performance failures,
and implementation failures for all RAMP components. Per the contract’s statement of
work, operations and maintenance includes:

    •    Conducting emergency repairs;
    •    Performing maintenance tasks;
    •    Providing documentation for procedures and help desk support; and
    •    Providing Tier 2 and 3 help desk support.5

As described in its monthly and weekly status reports, the developer is primarily helping
FPS and ICE migrate data to a new server, debug the system, resolve guard data
discrepancies, and provide RAMP deployment metrics to management. As of November
2011, FPS had paid the developer $1.2 million for work performed during the option year.

FPS Does Not Have a Long-term Solution To Maintain or Transfer Critical Data

FPS has not determined the nature of data in RAMP, what data are valid, and what data
need to be preserved for future use. FPS is just beginning to evaluate its options but does
not have a timeline for performing this analysis, despite the impending end of the follow-
on contract in June 2012.

FPS will likely consider two options: (1) transfer operations and maintenance of RAMP
to a company that was recently awarded a contract for infrastructure technology support,
or (2) decommission RAMP in a way that preserves critical data. According to FPS,
there are approximately 75,000 documents in RAMP. With 6 months left on the current

3
  The actual amount spent on the option year of the follow-on contract will not be known until the end of 

the contract year. 

4
  48 CFR 17.207. 

5
  Tier 2 and 3 help desk support handles questions or problems that the ICE Help Desk cannot resolve. 



                                                     3
contract, FPS may not have enough time to analyze this large volume of data and either
transfer them to another contractor or have them decommissioned. FPS also has not
analyzed the costs or benefits of either option. FPS should complete this analysis before
choosing a course of action.

Recommendation
We recommend that the Director of the Federal Protective Service plan and evaluate the
projected costs and benefits of both potential courses of action—for the operation and
maintenance or transfer of data in the Risk Assessment and Management Program—
before taking action regarding these data. This plan should include a determination of
what data are critical to FPS’ mission and should be preserved.

Management Comments and OIG Analysis
A copy of the Department’s response is included as appendix B. The Department
concurred with our recommendation. FPS has initiated a review of RAMP
documentation and data, looking specifically at the type and usage of the data as well as
options for retrieval and storage outside of RAMP. The Department will decide on or
before June 8, 2012, as to the continuation of RAMP.

The Department’s actions are consistent with the intent of the recommendation. In the
corrective action plan, the Department should provide further details regarding the results
of its review of RAMP documentation and data, particularly the type and use of the data
and retrieval options. Also, we have been made aware that since the Department owns
the RAMP data, the data will be accessible to FPS for operations and maintenance after
the expiration of the current contract.




                                             4
Appendix A
Purpose, Scope, and Methodology

In June 2011, Representative Bennie G. Thompson asked that we review two areas of
FPS’ operations: RAMP and whether a company breached its contract with FPS to
provide protective services for federal buildings in Michigan when its guards did not
properly attend to an explosive device at the Patrick V. McNamara Federal Building. As
part of our review of the Michigan contract, we also determined if the contractor’s
performance has been sufficiently remedied.

There is only slight overlap between the RAMP and Michigan contracts, which procure
different services and are administered by different offices. Therefore, we are issuing
two separate reports in response to Representative Thompson’s request. This letter report
contains the results of our review of RAMP.

Our original objectives concerning RAMP were to determine (1) the extent to which
internal control weaknesses exist within the FPS Acquisition Division; (2) the plausibility
of opening the RAMP contract to full and open competition; and (3) the amount of
money spent on RAMP and the extent to which RAMP has been deployed by FPS. We
altered these objectives as a result of actions taken by FPS and ongoing work by GAO.
We included GAO conclusions regarding RAMP in our report to provide context.

First, the FPS Acquisition Division is responsible for administering FPS’ guard contracts
and has no role in administering the RAMP contract other than advising FPS’ Director,
when asked. Therefore, we did not seek to determine the extent to which internal control
weaknesses exist within the FPS Acquisition Division.

Second, in July 2011, 1 month before the start of our fieldwork, Congress requested that
GAO review FPS’ efforts to contract for a new version of RAMP. FPS had already
ceased development of RAMP and was reevaluating RAMP requirements and alternative
programs to meet its requirements. Therefore, we did not seek to determine the
plausibility of opening the RAMP contract to full and open competition. However,
because Representative Thompson expressed concern that FPS awarded the original
developer an option year for operation and maintenance of RAMP, we reviewed the
factors that FPS considered, and its rationale, to determine whether this action was in the
best interest of the government.

In addition, we did not seek to determine the total amount of money spent on RAMP
because GAO addressed this issue in its July 2011 report. However, because FPS did not
expend all allocated funds for the base year of the follow-on contract and awarded the
option year after GAO ended its work, we determined the amount spent on the base year
of the follow-on contract and the amount obligated for the option year.

Although we did see indications that FPS is using RAMP for post inspections, Congress
has asked GAO to determine how FPS is performing facility security assessments and
managing its guard force as it transitions to a new version of RAMP. Therefore, we did
not review the extent to which FPS has deployed RAMP.




                                             5
Appendix A
Purpose, Scope, and Methodology

We reviewed sections of the Federal Acquisition Regulation and examined files from the
RAMP logical follow-on contract. We also interviewed officials from FPS, ICE, and the
NPPD Acquisition Division.

We conducted our fieldwork from August to December 2011. This review was
conducted under the authority of the Inspector General Act of 1978, as amended, and
according to the Quality Standards for Inspections (QSI) issued by the President’s
Council on Integrity and Efficiency, except that we identified an impairment to our
independence in appearance. Following completion of our review, it came to our
attention that a family member of a senior OIG official was employed by an entity
associated with this inspection. We took steps to re-evaluate the evidence supporting our
findings and conclusions. In our opinion, the impairment to our independence in
appearance did not affect the findings and conclusions developed during this inspection.

QSI requires that we adequately plan and perform the inspection to obtain sufficient,
competent, and relevant evidence to provide a reasonable basis for reaching conclusions,
consistent with inspection objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based upon our inspection objectives,
and that the impairment to our independence in appearance did not affect this evidence or
any findings and conclusions.




                                            6
Appendix B
Management Comments to the Draft Letter Report


                                                                               Office 0/"' 1' Ulllil!r S«rt!lll'J'
                                                                               Naf;f1IlIIl Prol«,iOIl 01111 Pr ogrtJms IJ;r« loTll'1!
                                                                                I f.S. I)rll:tr1mcnl or Il omd:and Stturi1 r
                                                                                Wlis hin~ lolI , 1)(': 2052K




                                                                      1~' Homeland
                                                                      \gt Security
                                             MAR 082012

        Mr. Carlton I. Mann
        Assistant Inspector Ge neral lo r Inspectio ns
        Officc of the Inspector General
        U.S. Department of Home land Security
        Washi ngton , DC 20528

        Dear Mr. Mann :

        Re: OIG Report 11-144-ISP-NPPO, FN;" Erercise 0/ a Contract Option/or tile Risk AsseSSlI/el/l
        (lnd Management Program

        The Department of Home land Sec urity (D I-I S)lNational Protec tio n and Programs Di recto rate
        (N PPD) appreciates the oppo rtuni ty to review and respond to the Office of Inspector General
        (O IG) report ll-1 44- ISP- NPP D, FPS ' E'Cerc:ise o/a Colllract Oplion/ol" the Risk Jlssessmelll
        and Mallagemelll Program (RAMP). Thi s aud it was conducted at the req ue st of Representati ve
        Bcnnie G. Thompson to review th e circum stances surrounding thc initi ation <Inc! co ntinuation of
        the RAMP contract. DI-ISINPPD is working to reso lve the isslles identified by the OIG.

        The Federal Protective Service (F PS) is responsib le for the protection of more than 9,000 Federal
        facilities owned or leased by the Gcneral Services Adm inistratio n (GSA). In 2003, FPS was
        transferred from GSA to the U.S. Immi grat ion and Customs Enforceme nt (I CE). In 2009, FilS
        was transferred to NPPD.

        In 2008, ICE competitively awarded a COntract fo r the developmcnt and maintenance 0 1· RAMP.
        This action was taken to address insufficient risk assessme nts and data weaknesses identifi ed by
        the Governmcnt Accountability Office (GAO). RAM P was in tendcd to be a next ge nerati on ris k
        assessment tool that wou ld enable FilS to assess and analyze ri sk posed to Federal fa cili ties and
        miti gatc those ri sks by recommcndi ng and trackin g countenneasures. In addit ion, RAMP' s
        o perating capabilities would assist FPS in managing post inspectio ns, guard contrac ts, and
        individual guard certification compliance. In an attempt to meet deployment milcslO l1cs, the
        total fu nding amount for the entire perfonnancc period was expendcd Jive years sooner than
        contemplated by the term of the contrac t. To cont inue RAMP development and prepare for the
        transiti on to NPPD, a shorte r term " logical foll ow-on" contract was issued in 2010 to continue
        with development and systcm operatio ns and maintcnance of RAMP whil e allowi ng timc for tbe
        Governmcnt to re-cxami ne any changes in its req uirements and thereafier compet itively awa rd a
        new contract renecting these requirements.

        The GAO report titled , Aclions Needed to Reso"le Delays and Illadequale OverSight issues wilh
        FPS' Risk Assessment Mcmagemcm Program ( 11 -70S R), issued in 2011 , revealed that a factor




                                                          7

Appendix B
Management Comments to the Draft Letter Report




        contributing to RAM P deficienc ies was the change to origi nal contrac t requirements result ing in
        the cont racto r hav ing to add resources. In late Apri l 20 11, FPS eval uated opt ions for limiting
        RAMP~assoc i at e d costs and ulti mate ly decided in May 201 1 to cease RAM P deve lopment
        beca use it was not cost~efrcct i ve and it d id not fu lfi ll its original goa ls. The contract was
        mod ified to remove deve lo pment activit ies and focus on system opcrations and maintcnancc.
        OIG co ncl uded that issuing thi s mod ificatio n was the most advantageous and cost-effic ient
        method o f fu lfi ll in g the Government's needs .

        DI-I SINP PD has no techni cal and sensiti vity com ments.

        Recommend a tion : '/11e Director oj FPS plan and evaluate the projected COSls and benefits of
        both potent ial courses oj action- for the operafioll and maintenance or tra11SJe,. of data in the
        RAlvfP~befo ,.e lClking action regarding these data. This plcll1 should il1c1ude a determination of
        what data are critical to FPS' mission and should be preser ved.

        N PllD/F PS co ncu rs w ith thi s recommendati on. FPS has initi ated a comprehensive review of
        RAM P doc ument ati on and data, look ing spec ificall y at the type and usage orthe data as well as
        opti ons for retrieval and sto rage outside of RAMP. In cons ul tat ion w ith the N PP D Office of the
        Chief In foflllation Officer, FPS w ill make a decision as to continuati on o f RAM P withi n 90 days
        from the date of thi s letter.

        We thank YO ll for the opportuni ty to rev iew and prov ide com ment o n this draft letter report, and
        we look forward to work ing wi th yo u on fUlure homeland sec urit y engagement s.

                                                Sincerely,

                                               (VJ~
                                                Rand Beers
                                                Under Secretary




                                                             8

Appendix C
Major Contributors to this Report

                    William McCarron, Chief Inspector
                    Paul H. Bergstrand, Senior Inspector
                    Lindsay K. Clarke, Inspector
                    Jasmine K. Davis, Inspector




                                         9
Appendix D
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate
                      Representative Bennie G. Thompson




                                            10
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
